<html>
<title> - AMERICA'S AGRICULTURAL LABOR CRISIS: ENACTING A PRACTICAL SOLUTION</title>
<body><pre>[Senate Hearing 112-180]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-180
 
   AMERICA'S AGRICULTURAL LABOR CRISIS: ENACTING A PRACTICAL SOLUTION 

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION,
                      REFUGEES AND BORDER SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            OCTOBER 4, 2011

                               ----------                              

                          Serial No. J-112-45

                               ----------                              

         Printed for the use of the Committee on the Judiciary





















   AMERICA'S AGRICULTURAL LABOR CRISIS: ENACTING A PRACTICAL SOLUTION























                                                        S. Hrg. 112-180

   AMERICA'S AGRICULTURAL LABOR CRISIS: ENACTING A PRACTICAL SOLUTION

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION,
                      REFUGEES AND BORDER SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2011

                               __________

                          Serial No. J-112-45

                               __________

         Printed for the use of the Committee on the Judiciary

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

71-756 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

       Subcommittee on Immigration, Refugees and Border Security

                   CHUCK SCHUMER, New York, Chairman
PATRICK J. LEAHY, Vermont            JOHN CORNYN, Texas
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
AL FRANKEN, Minnesota                JON KYL, Arizona
RICHARD BLUMENTHAL, Connecticut      JEFF SESSIONS, Alabama
               Stephanie Marty, Democratic Chief Counsel
                 Matt Johnson, Republican Chief Counsel


























                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     3
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     5
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa, 
  prepared statement.............................................   186
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   266
Schumer, Hon. Chuck, a U.S. Senator from the State of New York...     1
    prepared statement...........................................   321

                               WITNESSES

Black, Gary W., Commissioner, Georgia Department of Agriculture, 
  Atlanta, Georgia...............................................     8
Horner, Connie, President, Horner Farms Inc, Homerville, Georgia.    27
Knutson, Ronald D., Professor Emeritus, Texas A&M University, 
  College Station, Texas.........................................    13
Nassif, Tom, President and Chief Executive Officer, Western 
  Growers Association, Irvine, California........................     9
Rodriguez, Arturo S., President, United Farm Workers of America, 
  Keene, California..............................................    25
Ruark, Eric A., Director of Research, Federation for American 
  Immigration Reform, Washington, DC.............................    28
Smith, Robert A., Senior Vice President, Farm Credit East, 
  Cobleskill, New York...........................................    11

                         QUESTIONS AND ANSWERS

Responses of Gary W. Black to questions submitted by Senators 
  Grassley and Sessions..........................................    39
Responses of Connie Horner to questions submitted by Senators 
  Grassley and Sessions..........................................    47
Responses of Ronald D. Knutson to questions submitted by Senators 
  Grassley, Cornyn and Sessions..................................    54
Responses of Tom Nassif to questions submitted by Senators 
  Grassley and Sessions..........................................    63
Responses of Arturo S. Rodriguez to questions submitted by 
  Senators Grassley and Sessions.................................    72
Responses of Eric Ruark to questions submitted by Senators 
  Grassley and Sessions..........................................    88
Responses of Robert A. Smith to questions submitted by Senators 
  Cornyn, Grassley and Sessions..................................    98

                       SUBMISSIONS FOR THE RECORD

Black, Gary W., Commissioner, Georgia Department of Agriculture, 
  Atlanta, Georgia, statement....................................   103
Dairylea Cooperative Inc., Syracuse, New York, October 2011, 
  letter.........................................................   106
Department of Labor, Washington, DC, follow-up response and chart   108
Dothaneagle. Com, September 30, 2011, article....................   110
Economic Policy Institute, Washington, DC, March 21, 2011, 
  briefing.......................................................   112
Farmworker Justice, Washington, DC:
    October 11, 2011, letter.....................................   131
    Report.......................................................   133
Foremost Farms USA, Cooperative, Baraboo, Wisconsin, statement...   177
Goldstein, Bruce, President, Farmworker Justice, Washington, DC, 
  statement......................................................   179
Horner, Connie, Homerville, Georgia, statement...................   188
Idaho Dairymen's Association, Inc., Bob Naerebout, Executive 
  Director, Twin Falls, Idaho....................................   191
Knutson, Ronald D., Professor Emeritus, Texas A&M University, 
  College Station, Texas.........................................   194
Knutson, Ronald D., Professor Emeritus, and Dennis U. Fisher, 
  Professor Emeritus, Texas A&M University, July 2011, study.....   200
Nassif, Tom, President and Chief Executive Officer, Western 
  Growers Association, Irvine, California........................   268
National Council of Agricultural Employers, Washington, DC:
    Carol House, statement.......................................   279
    Elizabeth (Libby) Whitley, statement.........................   284
National Milk Producers Federation, Jerry Kozak, President and 
  Chief Executive Officer, Randy Mooney, Chairman, Arlingon, 
  Virginia, October 4, 2011, letter..............................   300
Northeast Dairy Producers Association, Inc., (NEDPA), Fabius, New 
  York:
    Fact Sheet...................................................   305
    October 6, 2011, letter......................................   306
Northwest Farm Credit Services, Tom Tracy, Legislative Affairs 
  Officer, Spokane, Washington, statement........................   307
Reuters, New York, New York, September 29, 2011, article.........   309
Rodriguez, Arturo S., President, United Farm Workers of America, 
  Keene, California, statement...................................   311
Ruark, Eric A., Director of Research, Federation for American 
  Immigration Reform, Washington, DC, statement..................   315
St. Albans Cooperative Creamery, Inc., Leon Berthiaume, General 
  Manager, St. Albans, Vermont, October 5, 2011, letter..........   324
Smith, Robert A., Senior Vice President, Farm Credit East, 
  Cobleskill, New York, statement................................   325
United States District Court, Southern District of Georgia, 
  Waycross Division, September 29, 2011, case....................   334
Upstate Niagara Cooperative, Inc., Timothy R. Harner, General 
  Counsel, Buffalo, New York, October 3, 2011, letter............   346
Wolf, Daniel J., Maple Lawn Farms Inc., Lyons, New York, October 
  3, 2011, letter................................................   349


   AMERICA'S AGRICULTURAL LABOR CRISIS: ENACTING A PRACTICAL SOLUTION

                              ----------                              


                        TUESDAY, OCTOBER 4, 2011

                                       U.S. Senate,
                               Subcommittee on Immigration,
                              Refugees and Border Security,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Subcommittee, presiding.
    Present: Senators Schumer, Feinstein, Franken, Blumenthal, 
Cornyn, Grassley, and Sessions.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Chairman Schumer. The hearing will come to order. I will 
make an opening statement; Senator Cornyn will; Senator 
Feinstein, because of the huge interest in California on this 
issue, will also make an opening statement. And if one other 
Republican comes, whoever you choose, they may. And that will 
be it in opening statements, and then we will get to our 
witnesses.
    Well, I thank everybody for coming. Today's hearing is on 
the current American agricultural labor crisis and the 
existential threat American agriculture faces from efforts in 
the House to pass mandatory e-verify laws without addressing 
the immigration status of the current agricultural labor force.
    Agriculture is an important industry, we know for all 
America--many people do not realize because New York City is so 
large--but also for New York State. We have 35,000 farms. They 
account for $5 billion in sales. They use nearly one-quarter of 
New York's total land area. We are first or second or third in 
a lot of things, like dairy and apples and cherries and lots of 
nice good things, lettuce, I think. Sauerkraut we are No. 1. 
Bet you did not know that. That is a special kind of cabbage. I 
have been there.
    Anyway, we put it on the hot dogs at the Yankee games. 
After last night, I am a little reluctant to bring that up.
    Given the amount of jobs and economic activity that are at 
stake, we must do everything we can to give our producers the 
tools they need to succeed.
    But whether it is apple farmers in western New York, 
strawberry growers in the Mohawk Valley, tomato farmers in the 
Hudson Valley, dairy producers in northern New York, or 
nurseries on Long Island, everywhere I go in my State--and I 
think it is similar in other States--folks tell me that the 
long-term viability of their farms is threatened because they 
cannot find the workers they need to remain competitive in the 
global market.
    Some might ask, in these times of double-digit 
unemployment, Why can't farms hire American workers? It is a 
logical question if you are not familiar with agriculture.
    Well, every farmer I have met in my travels in New York has 
aggressively tried to hire Americans to work in nurseries, 
farms, and vineyards. And I will tell a little story. I met a 
young lady about 10 or 12 years ago--15 or 20 years ago. Her 
father was a big real estate developer in New York. She loved 
flowers, and so she opened nurseries on Long Island. She was a 
very idealistic, progressive liberal person, and she had this 
idea: Why don't I hire the people in the South Bronx who are 
unemployed? She put up signs in the South Bronx. She said, ``We 
will pay you $8 an hour.'' The minimum wage was then $4 or 
something, so double. She built a little church, a little 
school, little buildings on her property so they would come out 
40 miles. And she said, ``If you want this job, $8 an hour, 
meet at the bus at 6 a.m., and we will drive you out there to 
Suffolk County.'' The buses filled up, but after 1 day the 
people quit. Americans do not do this work. It is back-
breaking, it is hard, and for whatever reason, we can tell our 
farmers to hire Americans, but it just does not work.
    My friends in the Long Island Farm Bureau can tell you that 
many of their members pay more than $12 to $15 per hour per 
worker, so it is a good salary, and they actively seek to hire 
American workers, arrange for transportation and drop-off, as I 
said.
    But what they find--even in this difficult economy and even 
if they offer Americans twice or sometimes three times the 
minimum wage and provide benefits--American workers simply will 
not stay in these jobs for more than a few days.
    This is not an indictment of either the agricultural 
industry or the American worker. It is simply a statement of 
fact that the average American will not engage in seasonal 
agricultural work that requires them to move several times a 
year throughout the country and work 7 days per week in extreme 
heat and cold.
    So who is stepping in to take these jobs, these difficult 
seasonal agricultural jobs? Whether it is California or Texas 
or New York or anywhere else in the country, immigrants who 
need these jobs to support their families they left behind in 
their native country are the ones who do it.
    Unfortunately, many of these immigrants that work in 
agriculture are in illegal status, giving our family farmers 
the Hobson's choice of hiring workers in illegal status or 
going out of business.
    This conundrum is about to reach a dangerous boiling point, 
as mandatory e-verify laws like those already passed in 
Alabama, Arizona, and Georgia--as well as those proposed in the 
House and the Senate--now pose a potentially fatal threat to 
the livelihood of American farmers.
    At this point I would like to introduce two articles into 
the record, if there is a no objection, so without objection, 
they are introduced.
    [The articles appears as a submission for the record.]
    Chairman Schumer. One is a September 30th article from the 
Dothan Eagle in Alabama where John McMillan--the Republican 
Commissioner of Agriculture elected just last year--indicated 
that the Alabama immigration law, which includes mandatory e-
verify, would ``have an adverse impact on the farm economy in 
the State of Alabama.''
    A September 29, 2011, article from Reuters where 
Commissioner McMillan also reported ``crops rotting in fields 
as a result of day laborers leaving the State ahead of the law 
taking effect'' in Alabama.
    As the witnesses will testify today, if Congress passes 
mandatory e-verify laws without providing growers a way to keep 
their current workforce, it will be issuing a death sentence to 
many, many farmers and family farms throughout America.
    Let me just give you a few statistics that one of our 
witnesses, Bob Smith, will tell us about today:
    In the Northeast, mandatory e-verify threatens the 
existence of 1,700 family farmers that are already on the brink 
because of the labor shortage.
    Nearly 50,000 agricultural jobs in the Northeast alone 
would be eliminated if mandatory e-verify is passed.
    If those Northeast agricultural jobs are lost, 55,000 off-
farm jobs in agriculturally related businesses could also be 
lost. That is 100,000 jobs. Many of these jobs are held by 
American citizens in agricultural marketing and processing, 
farm suppliers, and farm service businesses.
    So it is time for Congress to pass a practical solution to 
this problem, such as add jobs, which Senator Feinstein has 
worked long and hard on, and stop the ideological rhetoric that 
does not match the reality on the ground. We need a solution 
that severely penalizes farmers who hire illegal immigrants and 
exploit their workers. But we also need a solution that 
provides farmers with the ability to transform their current 
workforce into a tax-paying, English-speaking, legal workforce.
    The current situation is untenable. Every day American 
farms are closing. America has to import more and more food 
from abroad because it is far cheaper to buy foreign food than 
it is to produce food here. Failing to act is both a food 
security threat and an economic security hazard.
    I am confident our distinguished panel today will help us 
better understand these problems and guide us toward the best 
solution for reforming our agricultural immigration system.
    I now turn to Senator Cornyn for an opening statement.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Well, thank you, Mr. Chairman, and I 
appreciate your calling this hearing, and I appreciate all the 
witnesses being here today. I do want to give a special 
recognition to Dr. Knutson, who is going to be on this first 
panel, who is a professor emeritus at Texas A&M University in 
College Station. Aggies know something about agriculture, and 
we are glad you are here to share some of your expertise with 
us.
    Also in the audience I know we have Ray Pruitt, who we 
worked with very closely, representing a lot of the agriculture 
interests in South Texas that is a huge breadbasket really for 
the rest of the State and, indeed, the country.
    Since 1975, Dr. Knutson has been on the faculty at Texas 
A&M Department of Agricultural Economics. He is the author of 
more than 600 publications on agriculture policy and marketing, 
including a July 2011 study with Dr. Dennis Fisher entitled 
``Impacts of Immigration Reform Proposals on the Agriculture 
Sector,'' obviously a timely topic for today's hearing.
    Mr. Chairman, I would ask consent that that report be made 
part of the hearing record.
    Chairman Schumer. Without objection.
    [The report appears as a submission for the record.]
    Chairman Schumer. Also while we are doing it, without 
objection, the statement of Chairman Leahy will be entered into 
the record.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Senator Cornyn. Our topic today is a familiar one to those 
of us who have worked many years on immigration reform, but 
that familiarity makes the problem no less confounding. We 
cannot sugarcoat the facts. We should not sugarcoat the fact. 
Between 50 and 70 percent of the Nation's nearly 2 million farm 
laborers are in this country without legal authorization--50 to 
70 percent. That fact alone shouts loudly that our immigration 
system is simply broken.
    State laws have tried to fill the gaps where the Federal 
Government has failed, but it strikes me as bizarre that we 
find ourselves in the situation where the Congress that has 
passed our immigration laws is somehow concerned that the House 
may pass a bill that will actually require those laws to be 
enforced, although I do agree with the Chairman that it is 
important to provide a legal workforce for our agricultural 
sector. We neither effectively enforce the laws on the books, 
nor do we have an adequate legal system for agricultural 
employers to retain immigrant labor.
    The Chairman has mentioned Chairman Smith of the House 
Judiciary Committee who is leading an effort in the other 
chamber to, I believe, address both problems: No. 1, to find a 
way to effectively enforce our immigration laws through a 
mandatory e-verify program, but--and this is an important 
``but''--to craft also a solution for agricultural employers so 
they can access legal immigrant labor when employers are unable 
to find Americans to work the fields.
    Federal legislation mandating the use of e-verify is being 
spurred, at least in part, by the actions of 18 States that 
have required the use of e-verify for employers in those 
States. And, again, the States are acting because they look to 
Washington and see inaction and failure so far when it comes to 
reforming our immigration system. And they are, of course, 
experiencing the costs associated with education, law 
enforcement, and health care for a huge immigrant population in 
a disproportionate sort of way and one that Washington refuses 
to or is incapable of stepping up and indemnifying them for.
    I believe that mandating the use of e-verify on a 
nationwide scale is an important credibility-building measure. 
The Federal Government does not have credibility in this area, 
and we have got to regain it. So we have to convince the 
American people that Congress is serious about fixing our 
broken system, but we must also be mindful of the current 
economic climate and take care that we are not causing major 
disruptions to or burdens on our employers who are trying to do 
the right thing.
    As we will hear from Dr. Knutson, major disruptions in the 
agricultural labor supply will have real consequences for U.S. 
farm exports and cause an immediate and a substantial rise in 
food prices. In other words, we must tread very carefully here.
    I hope this hearing will help us explore ways to 
dramatically increase utilization of the existing agricultural 
guest worker program, known as H-2A. H-2A's problems are well 
documented, and I expect we will hear more about those problems 
today. But if H-2A cannot be improved, we should scrap it in 
favor of a broader guest worker program that really works.
    Mr. Chairman, I stand ready to work with you and with 
agricultural employers in Texas and across the country and with 
anyone else who is attempting in good faith to solve these 
difficult problems.
    Thank you.
    Chairman Schumer. Thank you, Senator Cornyn.
    Senator Feinstein.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
have worked for 10 years now trying to come up with a solution 
to the diminution of agricultural labor in this country, and 
during that period of time, what I have seen is the outsourcing 
of American agriculture to other countries. What I have seen is 
a diminution in the amount of value of the American 
agricultural crop. I will give you an example.
    California is the largest farm State in America. In 2008, 
it was a $39 billion plus industry. In 2009, it dropped to 
$34.5 billion. We have 81,500 farms, and people cannot get 
consistent and stable labor. It is a killer, ladies and 
gentlemen, an absolute killer, and it has been going on for 
years.
    I am announcing my intent to introduce next week a 5-year 
emergency AgJOBS bill. There will be no amnesty. There will be 
no citizenship. But what it will provide is a blue card to an 
agricultural worker who has met certain criteria to be able to 
remain in the country with his family provided that individual 
works agriculture a certain number of days a year. It will have 
a phase-in e-verify, and it will have the reformed H-2A program 
as part of it. And by the reform program, I mean the program 
that was negotiated between the growers and the farm workers.
    Let me give you a few examples of what is happening. Steve 
Scaroni of Scaroni Ranches was in the lettuce and broccoli 
industry for over three decades. He moved more than 2,000 acres 
and 500 jobs from his $50 million operation in Heber, 
California, to Guadalajara, Mexico, as a result of the labor 
crisis. He explains: ``I have no choice but to offshore my 
operation.'' Today he exports 2 million pounds of lettuce per 
week to the United States.
    Mel-Delin Dairy, a 250-acre farm with 900 cows in Turlock. 
The family farm has been employing migrant labor for 20 years. 
Ray Sousa, owner of Mel-Delin Dairy, states, ``I have not had a 
non-Hispanic want to do this work in 10 years. Once Americans 
get the job description, they lose interest real quick.''
    Phil Martin, an agricultural economist at the University of 
California-David, reiterates this point. He says, and I quote, 
``A whole lot of 18-year-olds prefer to work at McDonald's for 
minimum wage rather than milk cows.'' And that is despite the 
dairy industry's average wage of $11.38 an hour. That tells you 
something, ladies and gentlemen.
    California garlic and pepper farmer Tim Ciala says that the 
local labor supply has been tight and the production of 
California peppers has largely transferred to Mexico. The 
Cialas are third-generation California farmers. Mr. Ciala says, 
and I quote, ``Labor is always an issue. We might have all the 
people we need to harvest the crop 1 week and then not the 
next. Unfortunately, even in tough economic times, there are 
not a lot of people who want to do this work. It is hard 
work.''
    The produce grown on Mr. Ciala's family farm is distributed 
to companies nationally for use in sauces, soups, pasta sauces, 
and other consumer goods. However, Mr. Ciala observed that the 
industry is changing due to the labor shortage. Smaller fruits 
and vegetables and anything labor intensive is going away and 
does not get planted anymore.
    Asparagus plantings in California's Imperial Valley have 
declined from 786 acres in 2006 to 373 acres in 2008, a 
reduction of over 50 percent. Ayron Moiola of the Imperial 
Valley Vegetable Growers Association predicts that California's 
asparagus crops will disappear completely in the Imperial 
Valley if the demand for specialized asparagus planters and 
harvesters is not met. According to Ms. Moiola, asparagus in 
the Imperial Valley is an indicator as to what happens with 
crops that are labor intensive and what happens when labor 
becomes unfeasible economically and also just hard to find.
    The United States Department of Agriculture data show that 
over 9,000 acres of U.S. garlic crops have gone out of 
production in the last 11 years, and the supply of American 
grown garlic has been reduced by 94 million pounds. China--big 
surprise--has surpassed the United States as the lead supplier 
of garlic consumed by Americans. We are giving away our 
industry.
    John Reelhorn runs the Belmont Nursery in Fresno, 
California, a family run company founded in 1942. California's 
nursery and floral crop industry is valued at about $4 billion, 
making California the top producer of nursery greenhouse plants 
and trees in the United States. Despite the recession, Mr. 
Reelhorn has not seen American workers pursuing jobs on 
California farms. He states, and I quote, ``A lack of timely 
and thoughtful resolution of the farm labor crisis will hasten 
the offshoring of our specialty crop and livestock 
agriculture.''
    And it goes on and on and on. I have assembled a book that 
looks like this. We have copies. And throughout this whole book 
are stories from other States of the demise of American 
agriculture, which, while we fiddle and sit here, agriculture 
goes offshore. And the good produce that my State used to 
perform, superior to virtually anything, is no longer around. 
It is wrong. It is just plain wrong.
    I do not understand why people in this body cannot come 
together. All right? People do not want amnesty. They do not 
want to provide citizenship. So there is an alternative. The 
alternative is a 5-year bill allowing people who have been 
working to continue to work-60 seconds--so that we can begin to 
restore our agricultural industry in the United States of 
America. If we fail to do that, for shame, we really do not 
belong in this office. And I feel that to the depths of me. Of 
course, it has been 10 years of trying, and my frustration is a 
little high at the moment, but thank you very much, Mr. 
Chairman.
    Chairman Schumer. Thank you for your heartfelt and 
outstanding testimony and, even more importantly, for your 
leadership on this issue where hopefully we can make some 
progress.
    Let me now introduce our first panel and thank all of them 
for coming. Gary Black is the Commissioner of the Georgia 
Department of Agriculture, a position he was elected to in 
2010. He first began his career with the Georgia Farm Bureau in 
1980, was field rep, later served as coordinator for the State 
Young Farmer Program. In 1989, leaders of the Georgia 
Agribusiness Council, a Chamber of Commerce-like organization 
for farmers and ag business owners tapped Mr. Black to serve as 
president, a position he held for 21 years before being elected 
agriculture commissioner.
    Tom Nassif is president and chief executive officer of the 
Western Growers Association, an agricultural trade association 
whose members from Arizona and California pack, grow, and ship 
90 percent of the fresh fruits, nuts, and vegetables grown in 
California and 75 percent of the commodities in Arizona. Under 
President Reagan, he served as Deputy Assistant Secretary for 
the Near East and South Asian Affairs and as Ambassador to the 
King of Morocco.
    Bob Smith is senior vice president of at Farm Credit East, 
the largest agricultural lender to agriculture in New York 
State, with $2.2 billion in loans to capitalize farms and farm-
related businesses. In addition to providing credit, Farm 
Credit East also provides other financial services and 
benchmarking to help farmers succeed.
    And Dr. Ronald Knutson is a professor at the Agricultural 
and Food Policy Center at Texas A&M University. He is the 
author of over 600 publications on agricultural policy and 
marketing, a member of the Board of Trustees of the Farm 
Foundation, and boards of the American Economic Association and 
Foundation.
    Gentlemen, each of your statements will be read into the 
record. We would respectfully ask you to limit your statements 
here to 5 minutes each, and then we will do questions. Thank 
you all for being here.
    Mr. Black, you may proceed, and we will move across the 
panel from your right to left.

STATEMENT OF GARY W. BLACK, COMMISSIONER, GEORGIA DEPARTMENT OF 
                 AGRICULTURE, ATLANTA, GEORGIA

    Mr. Black. Thank you Mr. Chairman, Ranking Member Cornyn, 
members of the Committee, and ladies and gentlemen. It is a 
genuine honor for me to be here before you Committee today. I 
am not, however, clever enough to offer a sound-bite solution 
to the important topic under consideration. My purpose is to 
tell you that the need for a stable, legal supply of 
agricultural workers is real and that it impacts our economy 
and the safety of the food that your families and all Americans 
put on the table every day.
    I am sure that you all know that the Georgia General 
Assembly passed an immigration reform bill during the past 
legislative session. The law requires the Georgia Department of 
Agriculture to conduct a study of the conditions, needs, 
issues, and problems associated with the agricultural labor 
situation in Georgia and to recommend any actions or 
legislation that the department deems necessary or appropriate. 
This charge includes recommendations for H-2A reform and the 
evaluation of a potential for a State-run guest worker program.
    I am not at liberty today to report on the details of the 
study at this time, but we will be happy to share our findings 
with the Committee when it is complete in January 2012. 
However, I can provide you with a snapshot of what is happening 
with ag labor in Georgia today.
    Due to the reports of labor shortages for the spring 
harvest, Governor Deal asked my department to help evaluate the 
labor situation in early June. We took a brief, unscientific 
snapshot of the labor situation at that time by conducting a 
survey of Georgia's agricultural employers. The survey 
suggested that there were unmet labor needs during the 2011 
spring harvest season. Specifically, the survey revealed 
significant concerns among blueberry and fresh vegetable 
producers. However, we must consider additional variables for 
this past growing season, including unusually high heat and 
lack of rain, which caused an unexpected rush in harvest. But 
the bottom line is that the pool of 230 respondents reported on 
June 10, 2011, that they were not able to fill 11,080 
agricultural jobs.
    Also in June, at the urging of one of his board members 
from the Vidalia region, I contacted Brian Owens, commissioner 
of the Georgia Department of Corrections, to see if there was 
anything he could do short term to help meet the labor needs of 
producers. He offered to organize a pilot program where farmers 
could use probationer details to meet their labor needs. Two 
farmers participated in the pilot program and voiced mixed 
results. Both stated that the program could fill niche needs, 
but should not be relied upon as a primary source for field 
employees.
    The pilot program drew criticism. I do have a unique 
perspective on this issue. I went undercover at a crew on July 
6th and picked yellow squash for 6 hours, and survived. If the 
Committee has questions about this experience, I would be 
pleased to answer them following the testimony.
    I believe the only viable solution lies in developing a 
guest worker program for the 21st century. I have listened to 
farmers for 6 months. Here is a brief summary of what they are 
telling me:
    We desire and must have a legal workforce. The H-2A program 
is flawed. I need workers year round. Do Americans want their 
farm products produced here or abroad? I would love to have 
local workers who were drug-free, sober, reliable, and skilled 
at this work. Tell me where I can find them. And the litigious 
climate fostered by legal services is a burden too heavy to 
bear.
    Senator Chambliss' HARVEST Act addresses some of these 
concerns, and there are other pieces of legislation with good 
components. Some believe H-2A can be reformed; others believe 
that the brand is damaged and deserves a new logo. What I know 
is that in the near future we must design a program that works 
for all producers, one that is cost-effective and is 
administered in a way more conducive for success.
    Regretfully, a large number of illegal immigrants are 
working in agriculture today. A penalty-based work 
authorization permit should be considered for offenders. Such a 
measure could require substantial monetary fines, an annually 
renewed biometric permit supported by fees that is restricted 
for agriculture, and then strict employer enforcement after 
implementation.
    The proposal to move guest worker administration to USDA 
has promise. I urge consideration of allowing States to work 
under MOUs for administration of any new program at the State 
level. These relationships work well for FDA, EPA, and USDA in 
other arenas. Why not let Georgians help Georgians when it 
comes to administering guest workers so long as the State meets 
requirements established and monitored by Federal authorities.
    Sunday evening on Baltimore's gridiron the choices were 
simple: the Ravens or the Jets, one or the other. Sunday 
afternoon fans cheered 43 veterans and rookies at Dover's 
Monster Mile. Herein lies a parallel to this debate. I am 
convinced, Mr. Chairman, that the NASCAR approach to developing 
a 21st century guest worker program for American agriculture is 
what we need. It will take a multitude of fresh ideas to solve 
this problem while keeping our National defense and food 
security interests in sharp focus. We can continue to go around 
and around for a while, but my hope is that we can soon take a 
victory lap together. We cannot put off addressing this 
critical issue any longer.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Black appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mr. Black.
    Mr. Nassif.

STATEMENT OF TOM NASSIF, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
        WESTERN GROWERS ASSOCIATION, IRVINE, CALIFORNIA

    Mr. Nassif. Chairman Schumer, good morning, Ranking Member 
Cornyn and members of the Committee. A special thank you to 
Senator Feinstein, with whom I have had the pleasure of working 
over the last 10 years on immigration reform, for her 
tremendous efforts to bring bipartisan solutions and bringing 
employers and labor unions together to try and find a solution. 
Western Growers represents California and Arizona fresh 
produce. It is about half of all the produce grown in the 
United States.
    Studies conducted by the University of California-Davis 
demonstrate that every California agricultural job creates two 
non-farms jobs in our economy, and every farm dollar generates 
$1.27 for the California economy. Nationwide, the Department of 
Labor reported that 24 million jobs, a full 14 percent of all 
people employed in the United States, are supported by the U.S. 
food and fiber industry.
    Today I am here to talk about a labor crisis. This is not a 
new challenge for agriculture. We have been working to secure a 
legal workforce for more than 15 years. But without immigration 
reform and with a diminishing labor supply and threats due to 
I-9 audits and ICE raids, coupled with e-verify legislation at 
the State and Federal levels, it is clear that U.S. agriculture 
will be decimated without a workable mechanism to provide the 
workers we need.
    Even before the challenge of e-verify legislation, the need 
for a workable agriculture labor program, especially for our 
current experienced workforce, could not have been clearer.
    In California, a State with no e-verify legislation 
pending, and across the country, agricultural employers are 
facing an increasingly difficult time finding a sufficient 
legal workforce. Western Growers recently polled our members: 
62 percent said they are experiencing labor shortages today.
    The existing challenges we face in securing a stable 
workforce will pale in comparison to the devastating impact of 
e-verify legislation in the absence of a workable labor 
program.
    The trends in California are startling. Our members and 
other specialty crop producers across the country are looking 
to foreign countries as they make plans to expand their 
businesses and will create additional jobs abroad, stimulating 
their economies.
    In the absence of a workable ag labor program for those 
presently employed in our industry, e-verify not only promotes 
the movement offshore of what was once U.S. production, it is a 
jobs killer for rural America.
    Right now, the only program available to secure a legal 
workforce is the H-2A program. H-2A is presently used by only 2 
to 3 percent of agriculture, and even then, the just released 
nationwide study of H-2A users commissioned by the National 
Council of Agricultural Employers that was presented to the 
House Subcommittee on Workforce Protections last month reports 
that 72 percent of workers arrived late, on average, 22 days 
after the date of need. Crops must be harvested when they are 
ready to pick, not when they are ready to wilt.
    In order to move us closer to a solution to meet our labor 
needs, we must consider a new approach to an employee visa 
program. The number of visas would be determined by the number 
of employer requests for workers on a monthly or annual basis 
and could vary year to year based on market conditions.
    Senator Feinstein has come up with many solutions, and I am 
anxious to see what her new legislation looks like because her 
past legislation has looked very good to our industry.
    A workable program would also provide farm workers with the 
same protections, no more, no less, than U.S. workers with 
respect to all employment-related laws and employment taxes. 
There would be no reason for an employer to prefer a temporary 
foreign worker over a U.S. worker.
    It is also imperative that this program address not only 
the need for future employees, but also the need to retain our 
experienced employees, the people who are already here. They 
are highly skilled employees we depend upon to keep us 
competitive by maximizing efficiencies through their experience 
and their training.
    If there are indeed 1.2 million or more falsely documented 
workers in agriculture and they were no longer able to work, 
then the two non-farm jobs that support them would also be 
lost. This is a potential loss of 3.6 million jobs in 
agriculture, most of which will be done and are being done 
today by citizens of the United States. With less domestic 
production, more food will have to be imported, compromising 
the safety and security of our food supply since only 1 to 2 
percent of imported food is inspected.
    There is not a person in the country that is not connected 
to this problem. If you eat fresh produce, drink milk, grill 
steaks, or purchase plants for your yard, you are benefiting 
from the hard work of a foreign agricultural worker.
    On behalf of Western Growers and the produce industry 
across the Nation, I am appreciative of this Committee's 
willingness to examine the labor crisis facing U.S. 
agriculture. We look forward to rewriting immigration policy 
for agriculture with you.
    Thank you very much.
    [The prepared statement of Mr. Nassif appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mr. Nassif.
    And now my fellow New Yorker, Mr. Smith, welcome.

   STATEMENT OF ROBERT A. SMITH, SENIOR VICE PRESIDENT, FARM 
               CREDIT EAST, COBLESKILL, NEW YORK

    Mr. Smith. Thank you. Thank you, Chairman Schumer and 
members of the Committee. Thank you for the opportunity to 
testify on agricultural labor-related issues. My name is Robert 
A. Smith; I am senior vice president with Farm Credit East.
    While there are many significant risks that family farms 
face, the concern with maintaining a stable labor supply is a 
risk factor with which our farmer members are most concerned. 
Many successful, forward-looking operations that have 
positioned themselves for decades for growth opportunities that 
could create more American jobs are holding back over concern 
with immigration enforcement actions and the possibility of 
mandatory e-verify.
    The reality is that over the past two decades, farmers have 
come to rely on immigrant workers who present the necessary 
identity and work authorization documents and are then employed 
under the same Federal and State terms as other workers.
    We believe this is a jobs and food security issue. If as a 
country we fail to find a workable solution to enable labor-
intensive agriculture to maintain the necessary workforce, we 
will see another part of our economy move offshore where 
barriers to entry for new agricultural enterprises are minimal. 
To some degree we need to ask ourselves, Do we prefer to have 
our food produced domestically with the use of some foreign 
labor or in other countries with foreign labor for all of the 
jobs?
    To better understand this issue, we prepared a 
vulnerability assessment to estimate the economic impact of the 
loss of alien workers on farms in our six-State area, based 
upon the assumption that an estimated 70 percent or more of 
them provide work authorization documents that appear to be but 
are not legitimate.
    Our analysis indicates that a labor shortage as a result of 
effective immigration enforcement actions without improved 
agricultural worker programs would have the following impact:
    Approximately 1,732 Northeast farms are highly vulnerable 
to going out of business or being forced to severely cut back 
their operations.
    These highly vulnerable farms are some of the most 
productive in the region; their total sales of farm product are 
estimated to exceed $2.4 billion, or 36 percent of the value of 
the region's agricultural output.
    Next, 20,212 full-time and 29,894 seasonal positions on 
farms would be eliminated if those highly vulnerable farms go 
out of business. The reduction in the farm payrolls is 
estimated to be $528 million annually. This means significantly 
less spending and economic activity in local communities as 
funds generated do not churn through the economy as they 
currently do.
    The highly vulnerable farms operate over 1.1 million acres. 
If these farms were to cease operations, some of the acreage 
might switch into less intensive agriculture, but thousands of 
acres would potentially be converted to non-agricultural uses.
    The economic impact of the loss of 1,700 farms goes well 
beyond the farm gate. We estimate that 55,311 off-farm jobs in 
agriculturally related businesses in the Northeast could be 
impacted. Many, if not most, of these positions are full-time 
jobs held by local citizens. These are positions with 
agricultural marketing and processing businesses, farm 
suppliers, and farm service businesses.
    As noted in our analysis, some of the farms that we 
consider highly vulnerable will survive in agriculture, but 
shift to less labor intensive farm operations. Clearly one of 
the great attributes of American agriculture is our production 
diversity. With this shift away from labor-intensive crops will 
come significantly reduced employment and payroll.
    Census data analysis indicates that the labor expense to 
grow 1,000 acres of grain is $31,980, the labor cost for 1,000 
acres of vegetables is $355,000, and the labor cost for 1,000 
acres of fruit is $922,000. These are at-risk payrolls that 
impact on local economic activity.
    An enhanced enforcement-only approach without an effective 
alien worker program to provide a legal workforce for 
agriculture is counterproductive to efforts to reduce 
unemployment. It will mean that American citizens involved in 
the food chain will be unemployed and more consumer dollars 
will flow out of the United States to purchase products that 
could have been grown in the United States.
    In closing, we all support efforts to secure our Nation's 
borders and control entry of alien workers on America's terms. 
A critical part of that solution must be a workable program for 
agriculture that meets those objectives while providing 
America's farms with a reliable source of experienced farm 
labor.
    Thank you very much.
    [The prepared statement of Mr. Smith appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mr. Smith.
    Mr. Knutson.

  STATEMENT OF RONALD D. KNUTSON, PH.D., PROFESSOR EMERITUS, 
          TEXAS A&M UNIVERSITY, COLLEGE STATION, TEXAS

    Mr. Knutson. Chairman Schumer and Senator Cornyn and 
members of the Subcommittee, thank you for the opportunity to 
testify on farm labor policy.
    As emeriti professors from Texas A&M University, Dr. Fisher 
and I have researched the agriculture economic conditions that 
make the farm labor situation unique. Dr. Fisher has served as 
a farm labor specialist in Oregon, Michigan, and New York. We 
concluded that the current H-2A program is broken. Agriculture 
needs a much better solution.
    Reform of labor policy is essential. If farm labor is not 
available on a timely basis, large quantities of fruits and 
vegetables will be wasted. About 1 million farm workers are 
primarily employed to produce fruits, vegetables, and nursery 
crops. At least 61 percent of the farm workers are 
unauthorized.
    There are several myths regarding the economics of 
agriculture and the farm labor workforce. These myths can 
mislead individuals who seek solutions to farm labor problems.
    The first myth is that farm labor is readily available from 
the non-farm labor force. This is not true. Experience 
indicates that there are many farm jobs that non-farm laborers 
cannot or will not do. This was the central conclusion of a 
study completed by USDA and the University of California. Back-
breaking hand labor is essential for harvesting most perishable 
fruits and vegetables.
    These are jobs that must be performed on a timely basis, or 
food is wasted and farm income declines. Waiting for a work 
permit to be issued under the H-2A program is not a viable 
option. This is the principal reason most farmers do not use 
the program.
    A second major myth is that large corporate agribusiness 
firms employ most of the farm labor. This is not true. In 2009, 
2.2 million farmers were family farms, and only 61,000 were 
non-family farms. Over 46,000 family farms having less than 
$250,000 in sales were organized as corporations. Likewise, all 
types and sizes of farms, including small farms, utilize farm 
labor. In 2009, 16 percent of the labor utilized on small farms 
having $10,000 to $250,000 in sales was hired farm labor. These 
farms would be particularly adversely affected by actions that 
limit the availability of hired farm labor.
    A third myth is that farmers could pass on the increased 
hired farm labor cost to buyers. This is not true. Farm prices 
are determined nationally and globally by competitive forces. 
Mexico, Peru, Chile, Argentina, and South Africa are major 
sources of fruit and vegetable supplies for U.S. consumers. 
Chinese exports of apples have risen from near zero in the 
early 1990s to nearly double U.S. apple exports. Farmers whose 
operations are disrupted by changes in labor policies and costs 
increasingly run the risk of financial failure. In 2007, USDA 
determined that 20 percent to 40 percent of the farms in each 
farm type were in an unfavorable financial position. Higher 
labor costs will contribute to higher imports, reduced exports, 
and farm financial failures.
    Our fourth myth is that large agribusiness firms are 
directly involved in farm production that utilizes large 
amounts of farm labor. This is not true. Agribusiness 
corporations that produce farm commodities are the exception 
rather than the rule.
    Our fifth myth is that there is a national farm labor 
market and that farm labor shortages are not real. This is not 
true. In fact, farm labor markets are local and are dispersed 
throughout the United States.
    The fact that the H-2A program accounts for only less than 
5 percent of the hired farm labor workforce indicates that the 
immigration program is broken. It is time to replace the H-2A 
with a more flexible market-oriented program. Such a program 
must be attractive to current workers; farmers must be able to 
attest to their labor needs; farmers must be able to change 
their hired farm labor workforce on a timely basis; and there 
must be flexibility for workers to shift among farmers.
    A more healthy American diet will require increased 
production of fruits and vegetables. Farm labor policies 
involving a higher level of Government regulation would lead to 
fewer jobs and increased fruit and vegetable imports.
    [The prepared statement of Mr. Knutson appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Dr. Knutson. And now we will 
go to questions. We are going to limit it to 5 minutes per 
member.
    My question first, a simple yes-or-no answer if you can 
give it, to each of the panelists: Do you think our 
agricultural labor crisis in your region or State can be fixed 
without legalizing the current workforce?
    Mr. Nassif. Absolutely no.
    Chairman Schumer. No? Mr. Smith.
    Mr. Smith. No.
    Chairman Schumer. Dr. Knutson.
    Mr. Knutson. No.
    Chairman Schumer. Mr. Black.
    Mr. Black. Mr. Chairman, if legalizing means providing a 
work permit, that is the way I interpret that rule. We must 
have a viable guest worker program for agriculture.
    Chairman Schumer. That is one way of legalizing, 
absolutely. OK. Thank you. Let the record show all four did not 
believe it could happen without legalizing in some way or other 
the current workforce.
    Next question, this is for Mr. Black, Commissioner Black. I 
talked about two articles in my opening statement where the 
agriculture commissioner of Alabama stated that the Alabama law 
would have an adverse impact on the farm economy. There were 
similar statements from Brian Tolar, your successor at the 
Georgia Ag Business, who estimated the monetary loss of 
unharvested crops due to the lack of immigrant workers to be in 
the range of $300 million, with an overall adverse impact on 
the State of Georgia approaching $1 billion. Do you basically 
agree with Mr. Tolar's estimates?
    Mr. Black. Well, the estimates were really premature, and, 
Senator, there are some new studies. We are looking at some of 
those figures right now. Mr. Tolar's group and about five 
others engaged in this study. The preliminary numbers that I 
saw this morning were somewhere in the neighborhood of about 
$150 million. So the economic losses were real.
    This year, I would say it was more of an impact of the fear 
of the law rather than the law itself because there were some 
deadlines that were simply not----
    Chairman Schumer. Right. So you would say they are very 
significant but not as high as the initial estimate.
    Mr. Black. Yes, sir, that is correct. That is what is being 
aired right now.
    Chairman Schumer. OK. Thank you.
    Next question, and this one is for Mr. Nassif. Can you 
please give us a short verdict specifically on whether 
Arizona's new e-verify law has helped or hurt farmers to find 
American farm workers in Arizona? Some have suggested that 
mandatory e-verify will create 7 million jobs for American 
citizens. What do you think this legislation will do for the 
agricultural economy based on the experience that is occurring 
in Arizona?
    Mr. Nassif. Certainly in Arizona it has not helped the 
agricultural industry. It has been very difficult to find 
workers in Arizona. We tried going to the Department of Labor 
and asking for a simple fix that would allow us to bring those 
who live on the other side of the border, because Yuma is on 
the border, across to be able to work in our fields. And we 
said they do not want to have housing. If they want housing, 
let us provide housing for those that want it. But if they do 
not want housing, do not make us spend hundreds of thousands of 
dollars for this housing. None of those workers use the 
housing. The Department said, ``I am sorry. We do not think we 
have the authority to be able to change that.'' Well, every 
time we get a new administration in, they find some way of 
changing the regulations on H-2A. This would be a modest fix 
that would not hurt anybody. The worker would have the right to 
say yes or no outside of the hearing of the employer, but even 
small changes like that they are unwilling to do.
    Chairman Schumer. But you agree that this e-verify 
imposition in Arizona has hurt agriculture significantly.
    Mr. Nassif. It certainly has.
    Chairman Schumer. And the contrast with California, where 
there are still plenty of troubles, as my colleague has 
indicated, but it is considerably worse in Arizona right now?
    Mr. Nassif. Of course, in California we have no e-verify, 
and we still have shortages.
    Chairman Schumer. Right. A final question for Mr. Smith. 
Many of our farmers in the Northeast, they love farming. It has 
been in their family for generations. But the profits are razor 
thin, if existent at all. How would raising labor costs, even 
by relatively small amounts, affect so many of our family 
farmers in the Northeast?
    Mr. Smith. It would have a major impact, a major negative 
impact. The truth of the matter is that on many of our farms, 
labor is a major portion of the cost; 20, 30 percent of their 
total production often for Northeast farms goes to labor. So 
you have a 10-,  15-, 20-percent increase, that puts them in 
many cases in a non-viable situation. They just simply do not 
have the profit levels to survive that kind of situation.
    Chairman Schumer. Thank you. My time is up.
    Senator Cornyn.
    Senator Cornyn. Mr. Black, can you explain what an employer 
is required to do by current law to determine whether someone 
can legally work at their workplace?
    Mr. Black. Well, I have had many farmers report to me, 
Senator, over time that if they are presented with 
documentation that appears to be authentic, that is, completion 
of the I-9 and that kind of documentation, that there comes a 
real challenge of the farmer's inability to question the 
authenticity.
    Senator Cornyn. And I think, Mr. Nassif, you mentioned that 
you think about 70 percent--or I think maybe Mr. Smith, about 
70 percent are falsely documented?
    Mr. Smith. I said that, yes.
    Senator Cornyn. So just so we are correct, current Federal 
law requires an employer to do their best to try to confirm the 
legal eligibility of somebody to work, but under the current 
system, somebody can falsely claim a legal work status in the 
United States and, frankly, we do not expect employers to be 
the police or to do the Federal Government's job. They accept 
those documents at face value and, unfortunately, in a majority 
of cases, they end up being false.
    So it strikes me that we might be able to find a sweet spot 
here for people who are concerned about finding a legal 
workforce and also address what I think ought to come first, 
and that is, the concerns from the American people that the 
Federal Government is simply not doing its job enforcing the 
law. In other words, I think what we might be able to do--and, 
frankly, I think that Congressman Smith's e-verify bill may 
have brought us to this place. The threat of accurate 
confirmation of the eligibility or ineligibility of a 
prospective worker has brought us to the place where maybe we 
might be able to address a bill something like Senator 
Feinstein and others have proposed to create a legal workforce 
and not a pathway to citizenship. I think that could well be 
progress.
    But I am intrigued, Mr. Black, by your testimony where you 
say the Federal Government does not necessarily need to 
administer a temporary worker program that would actually work, 
unlike the current H-2A program, but could create one and then 
delegate the actual implementation to the States through an MOU 
for the day-to-day responsibilities of administering the 
program. You talked about how that relationship currently 
exists in an area like environmental enforcement and food 
safety regulations. Could you put a little meat on the bone and 
tell me how you think that might work?
    Mr. Black. Yes, sir. I have looked to the successes of our 
agency when it comes to implementation of food safety laws, to 
implementation of pesticide labeling laws, the wide range of 
issues that, and quite frankly, I am a pretty big proponent 
that there are many things the States can do perhaps more 
economically, and also closer to home. If the Federal 
Government could give us the rules to live by, could audit the 
systems, provide the standards, provide the training, perhaps 
return Federal tax resources to help support the program like 
they do with other initiatives, I think the idea is worthy of 
consideration.
    Senator Cornyn. Well, I hope federalism is not dead and 
that we recognize that the States are completely competent to 
administer many of these programs, and it does not have to be 
done nationally, and there could also be some flexibility 
associated with regional differences.
    Mr. Black. Yes.
    Senator Cornyn. Dr. Knutson, let me ask you, when the 
unemployment rate is so high, why will unemployed non-farm 
workers not take certain farm jobs? In some States H-2A wages 
are 30 percent higher than the Federal minimum wage. That is 
almost $9.50 an hour. Why is ag labor so different?
    Mr. Knutson. This is a very puzzling issue. It is true that 
agriculture is a back-breaking job; it requires you get down on 
your hands and knees and so forth and so on. I happen to feel 
that Federal policies regarding unemployment compensation may 
well be contributing to this issue. The more you extend the 
period, the less incentive there is for these people to take 
farm jobs.
    Now, that certainly is not the only explanation, but it is 
the only one I have not heard mentioned and talked about. Now, 
that is a highly political statement, I recognize that fact. 
But I think it is something that needs to be researched as to 
what kinds of disincentives are developed by our current 
Federal policies to get American citizens employed in 
agriculture.
    Senator Cornyn. Thank you, Mr. Chairman. Thank you, Dr. 
Knutson.
    Chairman Schumer. Senator Feinstein.
    Senator Feinstein. I drove down Highway 1 in the 
Castroville area, Mr. Chairman, and I would say the temperature 
was about 95, 96 degrees, and I watched row crops being 
harvested. And I will tell you, I would not last 10 minutes out 
there doing that kind of work. It is extraordinary difficult, 
and it is not true that these are unskilled workers. They are 
skilled workers. You watch their hands. You watch them pick. 
You know how they pick. You watch them prune. And it is precise 
because there is knowledge there. So I have come to have a 
great respect for people who have the stamina and the ability 
to be able to do these jobs.
    Now, I have also come to the conclusion that Americans do 
not, and do not want to have the stamina and do not want to do 
those jobs. But people who do I think should.
    Now, I wanted to ask a question about e-verify. Senator 
Leahy and I wrote a letter to Ali Mayorkas, who is Director of 
the United States Citizenship and Immigration Services, and we 
asked him about the potential use of the program within the ag 
industry, and he wrote back to us, and he said, you know, the 
usual, that it is designed to provide simple, convenient 
employment verification, and lack of computer access in remote 
areas could be managed through the use of e-verify employer 
agents. There are companies that run e-verify queries on behalf 
of other employers for a fee since EEAs design and build their 
own software to interface with e-verify using an access method 
known as web services. The bottom line is he said this could be 
worked out.
    But, on the other hand, if my bill were in law, you would 
have a counterfeit-proof blue card which would have biometric 
data in it, which seems to me to be equal to e-verify. Let me 
ask everybody what they would think of that. Mr. Black, and we 
will go right down the row.
    Mr. Black. Senator, I do not know about the comparison of 
the two, but as I stated in my testimony, absolutely a 
biometric card I believe is actually the direction we need to 
go. Now, how that fits into the actual logistics of e-verify I 
am not--I would not want to----
    Senator Feinstein. Well, it would be an option.
    Mr. Black. Yes.
    Senator Feinstein. Tom.
    Mr. Nassif. We believe that is a very viable solution, 
Senator.
    Mr. Smith. Senator, it seems like that would work. It is 
just important that the existing workforce be able to be 
included as part of the eligible workforce.
    Senator Feinstein. Right, right.
    Mr. Knutson. I agree with the concept.
    Senator Feinstein. OK. So that is one way of doing it that 
does not disadvantage the farmer that does not have computer 
knowledge. You know, I am not of the computer generation. I 
sort of managed to do without it, surprisingly, yes, and I find 
it challenging to learn.
    [Laughter.]
    Senator Feinstein. In any event, going back to the bill, I 
think most of you know about the H-2A reforms in the bill, but 
one thing I want to ask you about, yes or no, is: Would you put 
a 5-year limit on it? Now, again, this has no amnesty and no 
pathway to citizenship. Would you put a 5-year limit on it or 
would you have no limit? Mr. Black.
    Mr. Black. Your 5-year notion, it is certainly something we 
would love to talk about. I think that is a good idea. It is a 
good place to start, yes, ma'am.
    Senator Feinstein. OK. Tom.
    Mr. Nassif. While we would prefer a permanent resolution of 
this issue, we would certainly support a pilot program of 5 
years in order to find out how well it works or does not work, 
and then hopefully that would be a blueprint for future 
legislation.
    Mr. Smith. I understand the need for the 5-year limit or at 
least the viableness of the 5-year limit, but would prefer a 
permanent solution because that allows farmers to really make 
the investments that they need to do. If they are going to 
expand markets, going to grow agriculture in this country, you 
need a permanent solution over time.
    Senator Feinstein. Thank you.
    Mr. Knutson. What I really worry about is the impact on 
smaller farms. I think that smaller farms have a real difficult 
time coming to grips with the technology involved in 
communication with Government agencies at this point in time. 
And I am not saying they are computer illiterate necessarily, 
but it is a difficult process. So I worry that you are going to 
put a lot of small farms out of business.
    Senator Feinstein. Well, my 5-year bill would not have e-
verify. It would have a counterfeit-proof card.
    Mr. Knutson. Well, if you are talking about--I thought you 
said that you were putting in e-verify.
    Senator Feinstein. We are looking at putting it in, but the 
alternative--I am trying----
    Mr. Knutson. I agree with the alternative, but when it 
comes to e-verify, it seems to me that the impact on small 
farms--and by small farms I mean less than $250,000 in sales--
would be very adverse.
    Senator Feinstein. Would you gentlemen agree to--do you 
oppose e-verify for this purpose?
    Mr. Black. Do I oppose e-verify?
    Senator Feinstein. That is right.
    Mr. Black. E-verify is a real problem without the fix and a 
viable guest worker program, yes, ma'am.
    Senator Feinstein. Tom.
    Mr. Nassif. Our position has been and is that we do not 
oppose border security, employer sanctions, enforcement of the 
laws, e-verify, so long as we have a viable program for 
maintaining our present workforce and for bringing in new 
employees.
    Mr. Smith. E-verify without a worker program would just 
create devastation in agriculture, so you need a worker 
program. But keep in mind e-verify creates unfairness out 
there. The reality is that farmers have hired people, have 
looked for the documentation. They have gotten that 
documentation. And now we are going to go back, after those 
workers have been there 10 or 15 years, and say now you lose 
your workers? That is unfair. Those farmers have invested 
millions of dollars, have viable farms out there, using at that 
point in time what was appropriate. They provided the identity 
information to the farm business. They accepted it. They have 
to accept it. And they were hired. And now those workers are 
experienced workers that are needed on farms.
    So, you know, there is a lot of unfairness there. If we are 
going to do e-verify, we have to have a viable worker program.
    Senator Feinstein. Right. Mr. Knutson.
    Mr. Knutson. I agree with that statement.
    Senator Feinstein. Thank you, Mr. Chairman.
    Chairman Schumer. Thank you. I think the record shows that 
without significant changes, every one of the witnesses agrees 
that e-verify would not work. Just standing on its own, making 
it permanent would not work for agriculture. OK.
    Senator Grassley had to leave, so without objection, I will 
ask that his statement be put into the record.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Chairman Schumer. Now we have Senator Blumenthal.
    Senator Blumenthal. Thank you, Senator Schumer. Thank you 
for holding this hearing, which I think addresses a very, very 
important subject for the entire country, not just for your 
areas.
    Let me begin with Commissioner Black because you have a 
background not only in this area of providing verification of 
workers and so forth, but also food safety. I wonder if you 
could tell us how these requirements in terms of e-verify and 
the H-2A requirements impact safety, particularly at the local 
level, where you have implemented projects and requirements 
that are innovative and evidently successful.
    Mr. Black. Yes, Senator. I really believe it becomes a 
question--and Senator Feinstein did mention it earlier--as to 
whether we want the product produced here or abroad. I think we 
have Americans that want local production of food. I am seeing 
citizens of Georgia every day becoming more engaged in the fact 
that food production is as important a component of national 
security as anything else we do. They also recognize that we 
have had some challenges with our energy production and where 
that is coming from, and they do not want that to happen with 
our food.
    Therefore, we are at a very important crossroads. We must 
have an agricultural guest worker program that works for all 
producers, for without that labor we will continue to see 
production drift elsewhere. And I do not think that is 
acceptable.
    Senator Blumenthal. And food coming from elsewhere may not 
be subject to the same scrutiny and oversight and----
    Mr. Black. There are some challenges there, and we have 
even our own FDA challenges and border challenges of being able 
to inspect where that is coming from. It is a free and open 
global market, but I think for our economy, for jobs locally, 
and for that wholesomeness of locally produced or at least 
nationally produced food, our citizens expect us to put 
together a program to allow that to happen.
    Senator Blumenthal. So it is not just an issue of price or 
cost. It is also the potential safety of food coming from 
abroad if it is not produced here, and also the ability to 
control what the standards are applied when there is sufficient 
oversight at the local level through these----
    Mr. Black. Yes, sir, and I would maybe venture to say this 
also--there is a cost to doing this, but there is a cost to not 
doing it. One of the costs to not doing it is a price I do not 
think we can pay.
    Senator Blumenthal. And I gather all of you support the 
food safety goals and standards that come with production in 
this country as opposed to importing from abroad. Is that 
correct? The record will note that I think they all--all the 
witnesses agree.
    Let me ask you, Mr. Smith, because you come from a part of 
the country that borders on Connecticut, are there any regional 
differences particular to the Northeast that make us different 
so far as this subject is concerned?
    Mr. Smith. Thank you, Senator. It is good to see you. And 
we do serve farmers in Connecticut, and we have a number of 
offices in the State of Connecticut.
    Senator Blumenthal. And you do great work, and we 
appreciate it. Thank you.
    Mr. Smith. Thank you. Yes, some States are certainly more 
vulnerable to labor shortages than other States as an overall 
industry. Industries that have labor-intensive agriculture--
fruits, vegetables, dairy, nursery/greenhouse--are going to be 
more vulnerable to potential changes in labor than in other 
States. In the Northeast, a very high level of those 
production, Connecticut is the third most vulnerable State in 
the Nation when it comes to labor shortage if you look at it 
from the standpoint of the amount of labor cost as it relates 
to the total production in the State.
    Senator Blumenthal. And are there differences among the 
crops, the kinds of crops produced that make us particularly 
susceptible?
    Mr. Smith. Absolutely. Again, greenhouse/nursery products--
and Connecticut is very big in greenhouse/nursery, dairy, 
fruits and vegetables. We have got a number of great apple 
orchards and wineries in Connecticut, all vulnerable to not 
having adequate labor due to immigration enforcement efforts.
    Senator Blumenthal. Thank you. My time has expired, but 
this has been a very, very valuable panel, and I want to thank 
the Chairman again for having this hearing.
    Chairman Schumer. Thank you, Senator Blumenthal, and I 
thank the witnesses. Exactly right.
    Senator Sessions, do you have some questions?
    Senator Sessions. Thank you, Mr. Chairman.
    Gentlemen, the first thing I would suggest to you is that 
the first priority is what is in the national interest, what is 
in the interest of the United States, and the United States has 
a powerful interest in a lawful system of immigration.
    Second, I would suggest to you, you are not entitled to an 
unlimited amount of low-cost labor even if that is your desire. 
The world is filled with people who could get rich if they had 
a very high level of low-skilled or low-wage workers. So that 
is the problem we have got.
    The proposals that were made previously in the AgJOBS 
bill--and hopefully, if Senator Feinstein offers more, it will 
be better, but if it is not different, if it not going to pass. 
And that legislation had people coming for 3 years with their 
families, being able to extend for another 3 years, I think 
another 3 years indefinitely. By then they have children. 
Somebody said, well, we no longer need you, you should go home, 
you create a social problem of real great worth.
    I believe a guest worker program can be crafted that would 
be passable and would serve the national interest. I cannot see 
it being anything other than staying less than 1 year and 
without families for agricultural workers.
    I do believe that farmers can find employees that work on 
their farms from American citizens. That is the advantage. What 
our Nation should seek to do is to create a situation that 
would reduce food stamps, which have tripled in the last 10 
years, gone up 300 percent. We have got other welfare programs 
and unemployment insurance and the highest unemployment we have 
had. So, obviously, the national interest says let us use as 
many of the American workers as we possibly can to fill these 
needs.
    Do you think that you could be supportive of a plan that 
allowed workers to come for less than a year, to work and to 
return to their country and not place roots and bring families 
with them? Maybe you can give me your opinion of that. Do you 
want to start, Mr. Black?
    Mr. Black. Yes, sir, Senator. I tell you, any steps we 
could take to having a viable guest worker program for 
agriculture in this Nation, that is what I am for. We have had 
some experience with local workers----
    Senator Sessions. It is a little more expensive to have to 
pay somebody's entrance and back and forth for the farmer or 
the agribusiness and so forth. They would like for the person 
to be able to stay, and that was what was promoted previously. 
So do you think you can live with this kind of system?
    Mr. Black. Well, currently under H-2A they do go back and 
forth, and there are provisions for that. I think there is a 
tremendous bureaucracy that needs to be revamped, and that is 
why I am for actually rebranding this program as opposed to 
just putting duct tape on it again. But, you know, I would love 
to have some more discussions at the proper time and be able to 
share some experiences about employing local folks. There is no 
doubt in my mind that is an aspiration that every producer I 
represent would love to attain, and I would love for us to get 
there. I think it is a generational issue, and it is not going 
to be solved in the coming months.
    Senator Sessions. I am going to push back a little bit. I 
think people are willing to work, but they are not willing to 
take a job for 3 months and then be cast aside with no health 
care, no benefits, and no job security. So therein that niche 
lies some justification for a limited, well-managed guest 
worker program, I think.
    Mr. Black. Yes, sir.
    Senator Sessions. And then to the extent we can, bring as 
many citizens into full-time agricultural employment I think is 
not an unrealistic goal.
    Mr. Nassif.
    Mr. Nassif. Yes, Senator, thank you very much. If we are 
talking about new workers coming in, first of all, our industry 
is no longer just seasonal. It is not just 3 months. Most of 
our farms run 12 months of the year because the people who buy, 
the retail and food service companies, require an adequate, 
consistent quality and sufficient volume 12 months of the year. 
So----
    Senator Sessions. Well, you could stagger the----
    Mr. Nassif. So our farmers go from region to region so we 
have 12 months of the year, and, of course, the more experience 
they have, the more valuable they are. So our preference would 
not be for less than 12 months. And, of course, we would want 
those new employees to be able to return so long as they obey 
the laws of the United States and the State in which they work. 
It is a wholly different question if we are talking about an 
existing workforce, but I assume you are talking about just new 
employees and not the existing workforce.
    Chairman Schumer. Thank you, Senator Sessions.
    Senator Franken will be next, and I think there is a great 
interest in this subject shown by the number of seven members 
have shown up, which is a lot for a hearing on a Tuesday 
morning. Senator Franken.
    Senator Franken. This is a very, very important hearing, 
and that is why, Mr. Chairman. And I am sorry that I missed 
your testimony. I was in an important hearing in the Energy 
Committee, but this is very important to Minnesota. We have the 
seventh largest number of farms in the country as a State, and 
we have some nurseries.
    In fact, Mr. Nassif, last month Joe Bailey, the head of the 
Minnesota-based Bailey Nurseries testified before the House 
Education and Workforce Subcommittee. Now, Bailey's is one of 
the largest wholesale nurseries in the country, and Joe 
voluntarily enrolled his company in e-verify, and on top of 
that he dramatically expanded his recruitment efforts. And even 
then Joe Bailey was short 100 workers.
    Mr. Nassif, I am curious to know if this is a common 
experience, a farmer going out of his or her way to comply with 
the law and then finding that there is just no way to get 
enough workers. Is that common, in your view?
    Mr. Nassif. Yes, Senator, it is very common. Senator 
Feinstein has done some extensive studies on this in California 
to show that no matter what you do and how hard you recruit and 
the advertising you do and the efforts you make, you get very 
few people to respond, and those that respond either will not 
stay or stay maybe a day or two and then leave the fields. The 
United Farmer Workers Union, as you know, made a big effort--
Take My Job--and look what happened. I think there was 
something like 10,000 inquiries and maybe a couple of people 
actually worked on a farm.
    There is not any question that we cannot find a legal 
workforce in the United States, and that is why we have 
programs that allow us to go abroad to do that.
    Senator Franken. I was interested in reading your 
testimony, and I read all your testimony last night. You 
actually have a subheading, ``Steps toward a solution,'' which 
caught my eye.
    Mr. Nassif. Yes.
    Senator Franken. And I was interested to read about your 
proposed solution. Can you tell us a little bit more about it?
    Mr. Nassif. Well, Senator Feinstein, as I understand it, is 
introducing a new solution next week----
    Senator Franken. And I am a cosponsor of that.
    Mr. Nassif [continuing]. Which may be very similar to what 
we are talking about. But basically we are talking about two 
separate programs: one for new employees and one for existing 
employees. And, obviously, it is extraordinarily important that 
we maintain our current workforce because of the experience 
they have had, the loyalty that they have shown, and their 
ability to produce more per acre in harvest than we could 
retraining new employees and bringing them in.
    So we want to make sure that we have a program that allows 
them to be here legally. We are not asking for any special 
treatment. We are saying let us have a market-based approach so 
that the new employees coming in versus those who are already 
here versus any legal workforce would all be subject to the 
same sorts of laws. And the way we pay for a program like that 
is we take, for example, Medicare, which they would not be 
eligible for if they are here illegally, and put that money 
into cities and counties and States that have had to pick up 
the tab for some of this health care, take unemployment 
insurance and put that into the program to help offset the cost 
of administering a program like that, and take the Social 
Security funds, which they are not eligible for and which 
probably have collected hundreds of billions of dollars in 
Social Security that will never be paid to these farm workers, 
and put that in a fund for them so that when they do return 
after the end of their program to their country of origin, 
whatever that country might be, this would be a savings account 
for them, and allow us to bring the temporary workers in, the 
new workers in without families in the United States to be able 
to do that work, but be able to keep the legal workforce we 
have.
    We know that, although we have supported ag jobs for a 
decade, the pathway to citizenship, given the political 
realities, is not going to work. So we are suggesting now some 
program that does not necessarily need to a pathway to 
citizenship but allows them to be able to live here in peace 
and security for their jobs and well-being and still be able to 
benefit the best interests of the United States.
    Senator Franken. Well, I think whatever we do--and I know I 
am about to be out of time, so I will just--I think whatever we 
do is going to have to be in the context of comprehensive 
immigration reform. But in the meantime, thank you for your 
solution.
    I would not mind asking more questions a little later, but 
for now thank you, Mr. Chairman, for holding this very 
important hearing.
    Chairman Schumer. Thank you, and we will have a second 
panel, which Senator Franken has graciously agreed to preside 
over since I must be gone. But I want to thank the witnesses 
for excellent testimony that maybe, I think--I do not know if 
my colleagues would agree--will help us move to a solution to 
this area which cries out for a solution. And I would say from 
the comments of some of my Republican colleagues and some of my 
Democratic colleagues, we may not be that far apart, and we 
have to come up with a solution. The future of agriculture, we 
have someone from the Southwest, someone from the Northeast, 
someone from the West, and someone from the South who all agree 
we need to do something, and simply the advent of e-verify 
without some solution for existing workers does not work.
    So thank you all very much, and we will go on to the second 
panel. I want to thank Senator Franken for chairing the 
hearing, and I want to apologize to the witnesses in the second 
panel that I have been called away and cannot stay. Thanks.
    Senator Franken. [Presiding.] We have three witnesses for 
our second panel, and I would like to introduce them.
    Mr. Rodriguez, who is taking his seat, is the second 
president of United Farm Workers of America. I think we know 
who the first one was. He became UFW president in May 1993 
after the death of Cesar Chavez, the founder of the UFW. As 
president of the UFW, Mr. Rodriguez represents 30,000 farm 
workers in ten States and fights for workers to earn decent 
pay, health coverage, and protections against toxic poisons.
    Connie Horner is the president of Horner Farms in 
Homerville, Georgia. Horner Farms is a small, family owned 
organic farm. It currently grows blueberries, strawberries, and 
blackberries, and is planning to grow kiwi, grapes, bananas, 
and raspberries--you are shaking your head. Is that 
misinformation?
    Ms. Horner. Yes, that was from 2 years ago or so. We are 
now primarily blueberries and a nursery.
    Senator Franken. OK. Sorry that we had some outdated 
information, but primarily blueberries, which is what you are 
going to be testifying on anyway. I read your testimony.
    Despite trying to follow the rules, Ms. Horner lost 70 
percent of her blueberry crop this year even after listing 
``Help Wanted'' notices at three branches of the Georgia 
Department of Labor. And that is accurate, right?
    Ms. Horner. That was last year.
    Senator Franken. Last year.
    Eric Ruark is the director of research at the Federation 
for American Immigration Reform. At FAIR he provides research 
and drafts for issue briefs, reports, and other publications. 
He is the author of a report entitled, ``Illegal Immigration 
and Agribusiness: The Effect on the Agriculture Industry of 
Converting to a Legal Workforce.''
    Why don't we start our testimony with Mr. Rodriguez?

   STATEMENT OF ARTURO S. RODRIGUEZ, PRESIDENT, UNITED FARM 
             WORKERS OF AMERICA, KEENE, CALIFORNIA

    Mr. Rodriguez. Thank you very much, Chairman Franken and 
other members of the Committee, Senator Dianne Feinstein, whom 
we have worked closely with throughout the years, for holding 
this hearing and for inviting me here today.
    At the peak of the harvest, more than a million men, women, 
and children were toiling in our Nation's fields producing our 
fruits and vegetables and caring for our livestock. Yet most 
Americans have the luxury to operate in ignorance or denial 
about how the food we eat gets on our tables every day.
    Quite simply, agriculture in the United States is dependent 
on a hard-working, dedicated, tax-paying, immigrant workforce. 
We believe American agriculture employs about 1.1 million 
unauthorized workers on crop farms and in livestock, and those 
workers have families. There are over half a million children 
in the United States who have a parent who is an unauthorized 
farm worker; 70 percent of these children are U.S. citizens.
    These are facts. It is time for Congress to look beyond the 
harsh rhetoric of the anti-immigrant lobby and their talk show 
bullies and recognize what everyone knows is true: America 
needs these workers. Everyone in this room is directly 
sustained by farm laborers every day.
    There is another indisputable fact: The life of a U.S. farm 
worker in 2011 is not an easy one. Most farm workers live in 
poverty, endure poor working conditions, and receive no 
Government assistance. The simple reason that the agriculture 
industry depends so heavily on immigrants is because 
undocumented workers take jobs many American workers will not 
do, for pay other American workers will not accept, and under 
conditions other American workers will not tolerate.
    It is not the farm workers' fault that 15 States do not 
even provide the basic protection of workers' compensation for 
farm workers injured at work.
    It is not the farm workers' fault that more than 70 years 
after Congress passed the National Labor Relations Act, farm 
workers still do not have the right to join a union to improve 
their wages and working conditions, except in California.
    It is not the farm workers' fault that year after year farm 
labor contractors violate the laws with impunity while the 
growers who employ the contractors avoid any responsibility for 
the workers who are abused on their farms.
    We know from a campaign we initiated that was alluded to 
earlier--``Take Our Jobs! ''--that it is simply not possible to 
replace the 1 million professional farm workers who live and 
work here without legal status. This is why the enforcement-
only strategy to deal with the complex issue of immigration 
puts agriculture on a collision course.
    The sponsor of the e-verify bill in the House, Congressman 
Smith, basically admits that this is true. His answer is yet 
another guest worker program which would bring in another 
500,000 workers at a wage rate far lower than the average wage 
paid to farm workers in this country today. While Americans are 
not going to replace the unauthorized workers, it is all too 
easy to replace the hundreds of thousands of legal U.S. workers 
who currently work in agriculture with guest workers earning 
less. And that is exactly what will happen if the Smith bill or 
a similar proposal becomes law. For months, we have heard that 
the e-verify bill is a jobs bill for American workers, but for 
the poorest workers in America it will turn out to be just 
another jobs give-away.
    For over 10 years the UFW has sought a bipartisan solution 
to this dilemma, and we have worked very closely with Senator 
Feinstein.
    Because our current labor force is comprised of 
professional farm workers with essential skills needed to 
sustain the viability of the agricultural industry, AgJOBS 
would give undocumented farm workers presently here the right 
to earn legal status by continuing to work in agriculture. We 
have had to make many hard compromises to come up with a bill 
that is supported by both farm workers and agricultural 
employers, and we will remain open to new ideas, such as one 
suggested earlier by Senator Feinstein.
    We want to see a permanent solution for the current farm 
labor force that is here and their families. What we cannot 
accept is compounding the problem by adding yet another 
exploitative guest worker program that does not provide a path 
to legal status for workers already here. It is totally un-
American to allow an industry to build near complete reliance 
on guests.
    In agriculture it is not possible to enforce your way to a 
legal workforce. That goal will only be realized by improving 
the ability of farm workers to earn a living wage and by 
offering experienced immigrant workers a permanent place in 
this industry.
    We hope that this hearing will lead Congress to see the 
urgency of this issue and the need for a compromise that is 
faithful to the workers here. A failure to do so would be both 
a human and economic tragedy for our Nation.
    Thank you very much.
    [The prepared statement of Mr. Rodriguez appears as a 
submission for the record.]
    Senator Franken. Thank you, Mr. Rodriguez.
    Ms. Horner, I apologize for getting some of the information 
wrong in your introduction, but please proceed.

   STATEMENT OF CONNIE HORNER, PRESIDENT, HORNER FARMS, INC, 
                      HOMERVILLE, GEORGIA

    Ms. Horner. Thank you. Chairman Schumer, Ranking Member 
Cornyn, Senator Feinstein, and distinguished members of the 
Committee, I need your help to continue to do the right thing. 
I need legal, experienced, seasonal workers to maintain my farm 
and harvest food that helps feed Americans. I want to hire 
legal workers. But the process must be cost-effective and, most 
important, simple. In short, I need your help to make it easier 
to do the right thing.
    I manage a family owned organic farm. I am one of about 
2,000 United States blueberry farms. Our farm is small, but we 
share many challenges of large farms across Georgia and the 
Nation.
    In 2006, we hired 67 individuals over the course of the 
year. They were pleasant, productive, and efficient. We later 
received nearly 60 Social Security mismatch letters. Unknown to 
me, almost 90 percent of my hires were most likely falsely 
documented workers.
    This is reality for many growers, but it was unacceptable 
to us. We researched options and found H-2A. In 2007 and 2008, 
we filed joint H-2A contracts with a larger farm. We believed 
H-2A participation would supply legal, reliable, experienced 
workers. We were wrong.
    After suffering hail damage from a 2009 storm, we needed 
just five additional workers. Department of Labor employees 
assured us that they could fill over 500 farm jobs due to the 
large number of local unemployed Americans. I spent hours on 
the phone with three branches of the Department of Labor 
begging them for workers. Interested Americans only wanted air-
conditioned positions and refused to work outside. About 80 
percent of our fruit rotted on the bushes.
    Our 2009 DOL experience forced us back to H-2A in 2010. The 
larger farm refused to participate in the program, so we 
entered into our own H-2A contract and brought back the seven 
best farm workers from 2008. We spent more than $12,000 in H-2A 
non-payroll-related costs. H-2A compliance documentation 
consumed 14 reams of paper. That is 1,000 sheets of paper per 
needed worker.
    H-2A also requires us to hire local workers. In 2010, we 
sent out 58 local hire letters. Only 13 people accepted the 
jobs and came to work. Of those, six worked 3 days or less, one 
lasted longer than 2 weeks, and none--zero--finished the 
harvest season. By chance, we discovered many of our referred 
workers were parollees. I will not participate in a program 
that puts my family in unnecessary danger.
    I'd guess none of you would choose to be a new surgeon's 
first patient. Why? Because we all want to deal with 
experienced, efficient service providers. Farmers are no 
different. Yet almost all of H-2A's local worker referrals had 
no farm experience. As a result, production suffered and I was 
drowning in required paperwork instead of working in my fields.
    Our 2010 H-2A nightmare confirmed that the program is not 
the labor answer for American agriculture. I believe H-2A is a 
well-meaning mess that has turned Government red tape into a 
crimson tide. I want to keep our farm operating, but I need 
skilled, experienced seasonal labor to make that work.
    So where do we go from here? American agriculture depends 
on skilled, dedicated foreign workers. Few Americans are 
interested in manual labor farm jobs. It is not about wages. It 
is about choices. Americans have job choices, and they choose 
not to pursue agricultural work.
    E-verify enforcement without labor solutions will cripple 
American agriculture. For proof, just look at Georgia's 
experience this year. E-verify should not be the first step in 
solving this crisis but, rather, the final step.
    In short, today's H-2A would make Rube Goldberg proud. It 
takes a simple task and makes it extremly complicated. We need 
a new 21st century agricultural visa program that is simple to 
administer and includes current experienced agricultural 
workers.
    How important is this issue? Imagine a food version of 
OPEC. That is our future if we fail to develop a practical 
solution to this labor crisis and we become dependent on 
foreign countries for our food.
    I appreciate this opportunity to speak to you today. I 
believe that we can work together and solve this crisis. Then 
you can get back to other pressing issues, and I can get back 
to farming.
    Thank you.
    [The prepared statement of Ms. Horner appears as a 
submission for the record.]
    Senator Franken. Thank you, Ms. Horner.
    Mr. Ruark.

 STATEMENT OF ERIC A. RUARK, DIRECTOR OF RESEARCH, FEDERATION 
        FOR AMERICAN IMMIGRATION REFORM, WASHINGTON, DC

    Mr. Ruark. Senator Franken, Ranking Member Cornyn, members 
of this Committee, thank you all very much for the opportunity 
to testify here today. I am Eric Ruark, director of research 
for the Federation for American Immigration Reform, known as 
FAIR. FAIR is a national, nonprofit public interest 
organization representing more than 200,000 members and 
activists nationwide. We have been working for more than 30 
years to promote policies that will end illegal immigration, 
restore moderate legal immigration, and to reform our 
immigration laws to bring them into accord with the national 
interest. I am here today to testify about the employment of 
illegal workers in the agriculture industry.
    The H-2A visa program was created under the Immigration 
Reform and Control Act of 1986 specifically to allow the 
agriculture industry to transition to a legal workforce. Since 
then, large commercial farming operations actually have 
increased their reliance on illegal labor. The H-2A program has 
not been successful because the Federal Government has failed 
to secure the border and to enforce immigration law in the 
interior. Large commercial farming operations have taken 
advantage of this laxity, choosing to employ low-wage illegal 
workers in large numbers, over a million by last count if 
workers on livestock farms are included.
    Representatives lobbying on behalf of commercial farming 
interests oppose efforts that would result in a conversion to a 
legal agricultural workforce. They claim that converting to a 
legal workforce is cost prohibitive both for farmers and for 
consumers, and some have said explicitly that without illegal 
workers, crops would rot in the fields.
    No one would dispute that farm work is tough and that 
picking crops is not a job that many Americans would choose to 
do. But that does not mean there are not Americans who are 
willing to work as farm laborers and that fair wages and 
adequate working conditions would not attract more American 
farm workers.
    In the first quarter of 2011, there were over 28 million 
working-age American citizens with a high school diploma or 
less who were not in the workforce. It is simply not credible 
to argue that none of these Americans would be willing to do 
farm work when today up to 30 percent of hired farm laborers 
are American citizens.
    What I have found from examining data from the Department 
of Labor and the Department of Agriculture is that large 
commercial farms are the major employers of illegal workers and 
can afford to pay wages up to 30 percent higher than they 
currently pay and still remain profitable, even if the 
increases are not passed on to the consumers in higher retail 
food prices.
    Large commercial farming operations are a vital component 
of the Nation's food supply chain. When considering immigration 
and labor policy, the Federal Government must consider the 
interests of the agriculture industry, but that does not mean 
that the interests of the agriculture industry should trump the 
interests of the American public. Nor should they be allowed to 
continue to enjoy profits while depending on a low-wage, mostly 
illegal workforce.
    Now, I want to underline this point. There are those who 
are profiting from hiring illegal farm workers while the 
economic and social costs of illegal immigration are passed on 
to the American people.
    Yes, if illegal workers were replaced with legal workers, 
profit margins would be reduced, and it is likely that food 
prices would increase. But these increases in consumer prices 
would be very small, which has been demonstrated by other 
researchers. And I believe that Americans would be willing to 
add a few dollars to their weekly grocery bill if they knew 
that this was the result of farm workers being paid a living 
wage.
    To argue that our food supply is dependent upon the use of 
illegal workers should raise some very fundamental questions, 
particularly the ways in which the men and women who pick our 
crops are treated by their employers. There is an essentially 
moral question that underlies this discussion that we cannot 
dismiss simply by talking about price points or global 
competitiveness.
    If we as Americans want to have an honest food system that 
has integrity and one in which farm workers earn an honest wage 
for their labor and are not subjected to adverse working 
conditions, we must recognize the effect that a constant flow 
of illegal aliens is having on farm workers in this country.
    To maintain, as some industry representatives have, that 
depressed wages for hired farm workers are not the result of 
the use of illegal workers and that the failure of these jobs 
to provide a living wage is not the No. 1 reason why Americans 
are discouraged from taking these jobs flies in the face of all 
logic and in the face of all evidence.
    It is also misleading to declare that the H-2A program is a 
failure when it has been vastly underutilized by employers who 
have chosen to hire illegal workers. It may not be that 
Americans would take all available jobs vacated by illegal 
workers, but working to achieve a legal agricultural workforce 
will result in better wages paid to farm laborers and better 
working conditions on farms, and this will attract more 
Americans to these jobs.
    Thank you very much.
    [The prepared statement of Mr. Ruark appears as a 
submission for the record.]
    Senator Franken. Thank you.
    I just want to take my prerogative as Chairman to question 
last. First we will turn to Senator Feinstein, who, again, has 
spent a tremendous amount of time and thought and effort in 
this field. Senator?
    Senator Feinstein. Thank you very much, Mr. Chairman. I 
really appreciate that.
    Mrs. Horner, I think you have told it the way it really is. 
We have compiled this booklet of stories, and they are all like 
yours.
    Mr. Ruark, come to California, come to the Central Valley, 
come at harvest season and really see what it is like, because 
I think you are in some kind of a dream world.
    Arturo, let me ask you some questions. We have worked now 
for 10 years to try to find something that would work, that the 
growers will accept, that you on behalf of the workers will 
accept, and I thought we had it. And as I said earlier, I see 
no way where a bill that has citizenship is going to fly in 
this Congress, certainly not in the Senate--we cannot get 60 
votes--and not in the House of Representatives.
    I think this hearing has been very helpful with respect to 
e-verify. But assuming we took the basic structure of the 
AgJOBS bill, the emergency AgJOBS bill, and maybe toughened a 
couple of numbers in the eligibility requirement part and the 
length people would have to work on a farm, and had the 
counterfeit-proof ID, which we have in the bill, would you 
support it?
    Mr. Rodriguez. We would obviously want to discuss it and 
see what the legislation actually says in detail, but, Senator, 
I think we would be concerned, first, about ensuring that there 
is a permanent solution for the workers that are here right now 
and their families, and that there is legal status given to 
those workers so that they do not have to fear ICE or the 
immigration raids that are currently going on right now in 
California and every other State in this country; and, second, 
that the guest worker proposal that is in AgJOBS remain the 
guest worker proposal that is part of this; that we do not move 
toward the guest worker proposal that is being proposed right 
now in the House of Representives because we feel that would 
undermine everything that we have worked so hard for these past 
years. Really, to us, the the House guest worker is un-American 
and really won't protect Americans here in the United States.
    Senator Feinstein. Right. Well, we would leave the guest 
worker proposal except change the date to 2010 for the 3-year 
period, which was negotiated. So the guest worker proposal that 
was negotiated would remain.
    With respect to families, there would be the blue card, and 
the blue card would enable somebody to stay in the country for 
the length of the bill. And that would be 5 years as planned.
    Now, what is the reason for this? We all hope that there 
can be an overall immigration reform bill. We all know the 
system is broken. There just are not 60 votes for it in the 
Senate, and I doubt very much that there are the votes for it 
in the House. And that is for the rest of this session.
    My thinking always has been get people working in the 
industry, get farmers able to count on a workforce, get people 
out of the shadows, at least with respect to agriculture, and 
begin to rebuild this agriculture industry, be able to provide 
Mrs. Horner with the workers she needs every year with some 
stability. And I think that is the best we can do right now.
    I am going to try. I am going to put it in. I am going to 
try. And if we go down, we go down. But at least we are going 
to try, because what I am afraid is that a lot of this land is 
going to get sold off because farmers are getting fed up that 
they cannot find workers to work their farms. And then once 
that happens, we lose our industry. Certainly in California 
that is the case.
    You can say anything you want.
    Mr. Rodriguez. No, Senator, I mean, obviously, we have 
worked with you for the last 10 years. We are very thankful for 
the dedication and the commitment you have made to this 
particular issue. Certainly no other Senator in the Nation has 
worked on this as hard as you have, and we will continue to try 
to work with you to find solutions because we truly believe 
that there needs to be a permanent solution to the current 
workforce that is here right now today with their families. And 
we also believe that any guest workers that are brought into 
this country need to be done so with labor protections to 
ensure that they are not going to displace American workers.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Senator Franken. Thank you, Senator Feinstein, and, again, 
thank you for your leadership on this issue.
    Now to the Ranking Member.
    Senator Cornyn. Mr. Rodriguez, I see from your background 
you are actually from San Antonio, although you live in 
California.
    Mr. Rodriguez. That is right, sir.
    Senator Cornyn. I have got my boots on, too, to prove it.
    Senator Cornyn. Well, I do, too.
    Mr. Rodriguez. Good.
    [Laughter.]
    Senator Cornyn. I wanted to press you a little bit on what 
you said about guest worker programs because, of course, we 
have a legal guest worker program known as H-2A, but obviously 
it does not work and it needs to be fixed. At least that is my 
view.
    You have used some pretty tough language about guest worker 
programs. I think you used the word ``un-American.'' Would that 
also include your feelings about the current H-2A?
    Mr. Rodriguez. No. But Senator, I think you are aware that 
in AgJOBS we have discussed with Senator Feinstein and many 
others that there are acceptable adaptations, adjustments to 
the H-2A guest worker program to make it more feasible, to make 
it workable for the agricultural industry as well as for 
workers, and as well as for protecting American jobs. We will 
continue to be in support of that--as long as other conditions 
are met.
    Senator Cornyn. I recognize that people of good faith are 
trying to figure out a very complex puzzle and trying to figure 
a way to come up with solutions. But it has been my 
experience--and we have some Texans here today, other Texans. 
Do you still call yourself a Texan, by the way?
    Mr. Rodriguez. I sure do.
    Senator Cornyn. OK, good. Good.--who have advocated for 
room to allow people who do not necessarily want to come to the 
United States and become citizens to come and work legally here 
and then return home with the savings and perhaps the skills 
they have acquired working in the United States.
    As a concept, do you oppose that?
    Mr. Rodriguez. Well, that is currently what the H-2A 
program does do, and it does allow for workers to come here and 
work for a temporary period of time based on the need and then 
to return home, and not bring their families here. And we are 
not necessarily totally in support of that because we would 
like to see people that come here to work in this country have 
a stake here. We believe that is important. When you take 
ownership, you take a lot more pride in the work that you are 
doing. And certainly the current labor force that is here today 
has a lot of pride, they have a lot of roots. They have been 
here, some for generations now, and that is what we are most 
concerned about, to ensure that those workers are protected.
    Senator Cornyn. I understand, and I believe that one of the 
most important things we can for all of the population, 
immigrant population, native-born population, is to make sure 
we have a legal framework that protects them and protects the 
country. And I think that is where we are trying to get.
    Mr. Ruark, the data shows that 20 to 40 percent of the 
farms in each farm type classification are in less than a 
favorable financial position. That is from 2007 data. Would you 
agree that these are the farms that would be the most 
vulnerable to labor cost increases?
    Mr. Ruark. I would not agree with that. I think the farms 
that are in the most favorable condition are the ones who are 
utilizing illegal workers the most, and so the farms that we 
see, the smaller operating farms, the farms with smaller profit 
margins, usually do not hire seasonal workers or do not hire 
them on a large scale. So I think they would be less affected 
by that.
    Senator Cornyn. Since according to different testimony more 
than 50 percent, some have said as high as 50 percent of the 
people working in agriculture now in America do not have legal 
authorization to do so, what is the effect on wages for 
American citizens when people rely on that population for jobs 
in the ag sector? Does it depress American wages?
    Mr. Ruark. Absolutely. I do not know how someone can argue 
that an employer having access, abundant access, to people who 
are willing to work for low wages is not going to depress wages 
for everyone. We do not only see it in the agriculture sector, 
but I think it is most pronounced, and the wages in the 
agriculture sector are lower than in other low-skill 
occupations. And the unemployment rate, if I may add, is also 
higher for agricultural workers.
    Senator Cornyn. I just have to ask this question, too, 
because those of us who live along the U.S.-Mexico border know 
that the costs associated with our current system fall most 
directly on local citizens in terms of education, health care, 
and law enforcement costs for our current system. And yet the 
Federal Government does not live up to its responsibility 
either to secure the border or provide a legal immigration 
process that would satisfy our economic needs. And yet the 
costs follow local taxpayers the most. Is that your experience?
    Mr. Ruark. Yes, Senator. The way that my organization, 
FAIR, looks at it is that the Government really is helping to 
subsidize low-wage labor and that the employers who utilize it 
are profiting from that, but the costs are borne at the State 
and local level. So it is taxpayers really who are 
supplementing this by the additional costs of illegal 
immigration.
    Senator Cornyn. And I bet that you and Mr. Rodriguez could 
agree on one thing, and that is, people who operate outside the 
ambit of the law are vulnerable to exploitation of a variety of 
kinds. Would you agree with that, Mr. Rodriguez?
    Mr. Rodriguez. Yes.
    Mr. Ruark. I would say without a doubt, absolutely.
    Senator Cornyn. Thank you.
    Thank you, Mr. Chairman.
    Senator Franken. Thank you, Senator Cornyn.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Senator Franken.
    Let me begin by asking you--first of all, thank you for 
being here today. I will begin by asking you the question you 
may have heard Senator Schumer ask of the last panel. I would 
like to ask it of you, and I think the responses may be 
somewhat different. But do you agree that the solution to the 
problems we have been addressing here really require legalizing 
the current status of workers who are now on our farms working 
to harvest our crops?
    Mr. Rodriguez. Yes, and their families.
    Senator Blumenthal. And their families.
    Ms. Horner.
    Ms. Horner. Absolutely.
    Mr. Ruark. No.
    Senator Blumenthal. I suspected your answer might be 
different, and so my question to you is--you have heard here 
today most recently, most immediately from people who are 
actually in the trenches, so to speak. Ms. Horner operates a 
50-acre farm, and you have heard her describe her difficulties, 
and you have heard members of the other panel. So why do you 
disagree?
    Mr. Ruark. Well, I want to commend Mrs. Horner for her 
commitment to a legal workforce. That is something that not all 
employers are committed to. And I think she raises some valid 
questions about the H-2A program and how it can be improved.
    Senator Blumenthal. But it is not only she who has raised 
them, so----
    Mr. Ruark. No, absolutely. She is testifying today.
    Senator Blumenthal. The previous panel, who are very well 
versed and experienced in the real, practical, everyday reality 
of what Ms. Horner describes as ``a well-meaning mess.''
    Mr. Ruark. So your question is why does FAIR oppose 
legalization, Senator?
    Senator Blumenthal. Correct.
    Mr. Ruark. OK. We oppose amnesty for a number of reasons. I 
think the most----
    Senator Blumenthal. Not necessarily amnesty, but----
    Mr. Ruark. Legalization.
    Senator Blumenthal [continuing]. Some legalized status, and 
Mr. Black said some permit program, which would conceivably 
involve screening and other kinds of criteria applied.
    Mr. Ruark. I think what we have seen in the past when 
legalization programs have been implemented, that helps to 
facilitate the movement of workers out of the agriculture 
industry, actually. We saw it in 1986. Following 1986, there 
was a steadily increasing number of illegal workers who came in 
to replace the steady number of legalized workers who were 
moving out into other occupations, construction, service 
industry, you know, all those other jobs that supposedly 
Americans are not supposed to be working. And so I think that 
is a real problem, but I think the biggest problem is whether 
we reform H-2A or we institute a new guest worker program. If 
we do not enforce those measures, the same problems are going 
to arise, and there is not a lot of confidence among the 
general American public that whatever is put into place is 
going to--the requirements are going to be upheld by----
    Senator Blumenthal. And I think as a former prosecutor, 
enforcement is the key to any law.
    Mr. Ruark. Right.
    Senator Blumenthal. Without it, the law is meaningless. But 
also the law has to be enforceable.
    Mr. Ruark. Correct.
    Senator Blumenthal. It has to be practical and real in 
terms of what it requires so that people really can comply 
voluntarily, because most laws depend on voluntary compliance 
for the most part and on the deterrence that comes with strong 
enforcement. Would you agree?
    Mr. Ruark. Absolutely. Strong deterrence, strong 
enforcement is something we support wholeheartedly.
    Senator Blumenthal. So some reform of the law, not just 
stronger enforcement, is required here, is it not?
    Mr. Ruark. I would agree with that, but I would not say 
legalization can be part of it. FAIR is never going to support 
that. I do not think the American people will ever support that 
until they have the confidence that the integrity has been 
replaced within the system. And over the past 25, 30 years, I 
think it has been demonstrated that the system is not working. 
And the disagreement I think we see here is why. Is it because 
it is unfeasible, or is it because there has been an outlet for 
employers to hire people illegally which affects the whole 
industry in a negative way, and also discourages Americans from 
seeking employment as farm workers?
    Senator Blumenthal. Do you disagree with the witnesses who 
testified here that they have difficulty--in fact, they find it 
impossible sometimes to fill those jobs with people who are 
here legally? Certainly you have heard Ms. Horner describe her 
very, very impressive efforts to do the right thing.
    Mr. Ruark. I would not disagree with those statements, but 
I would say our disagreement comes in why that is, why the 
difficulty is--why they are having so much difficulty 
attracting workers. I think in some areas, in some sectors, 
there may be a short-term shortage of workers, but I do not 
think overall that we lack a labor supply who would and could 
do these jobs if we incentivized them.
    Senator Blumenthal. And the--and I know I am at the end of 
my time, Mr. Chairman.
    Senator Franken. Please take your time.
    Senator Blumenthal. But the key word here is 
``incentivize.'' I would like to invite you to give us your 
views on what kinds of incentives would be necessary. Obviously 
the current ones are not sufficient.
    Mr. Ruark. Well, I think for workers it is tightening the 
labor market, which would raise wages and conditions. And I 
think both of those things have been depressed by the access of 
employers to illegal workers. But I think the way to 
incentivize employers is to say, ``We are going to hold you 
accountable, and we are going to make sure that if you violate 
the law knowingly, you will be prosecuted,'' that criminal 
charges will be brought against employers who knowingly hire 
people illegally. That threat is implicit, but I do not think 
that, especially in the agriculture sector, there is a great 
fear that they are going to be held accountable for breaking 
the law.
    Senator Blumenthal. Well, I want to thank you for your 
testimony. I would just close with the observation that for the 
employers who are self-enforcing, so to speak--and Ms. Horner 
is one of them, and others who were here today--the prospect of 
following the law leaves them right now in really an untenable 
situation because they have had that difficulty of really 
enlisting a sufficient legal workforce.
    So I think the reform of the law is not just about 
enforcement. It has to be about changing fundamentally the way 
that we provide rights and the labor force for these employers, 
and I would invite you to think more about what kinds of 
reforms will lead to better enforcement but also to the 
availability of a more abundant and available labor force. 
Thank you.
    Thank you, Mr. Chairman.
    Senator Franken. Thank you, Senator, and thanks to all the 
witnesses. This has been a very good panel.
    I think there is agreement here that this system is broken. 
I think there is disagreement over what to do. Mr. Ruark talked 
about there being a short-term shortage of farm workers if we 
sort of adopted his solution, speaking of which, Ms. Horner, 
when you have blueberries that are ready to be picked--I am 
talking short term here--how many days do you have to pick 
them?
    Ms. Horner. For good quality, 7.
    Senator Franken. So it is a 7-day window?
    Ms. Horner. Yes. We pick each field an average of every 7 
days to make sure that the fruit goes high quality, fresh 
market. After that, the quality deteriorates, and we usually 
have to go into the process market, if you can get it in. High 
bush is typically all fresh, and then the later varieties are 
usually processed.
    Senator Franken. OK.
    Ms. Horner. So if your labor is 10 days late, you are going 
to have a mess for the entire 11 weeks of your blueberry 
season.
    Senator Franken. And, obviously, with the H-2A program, the 
experience has been--and, Mr. Rodriguez, you can speak to this 
because you have experience observing this--that there are 
often delays in getting workers. And you were unable to get 
enough workers as it was, but even when there are workers, just 
standardly there are delays, right?
    Ms. Horner. The H-2A experience I had with bringing labor 
was successful. Our labor did get there in time. We actually 
brought them--we made sure we had a window of 7 to 10 days to 
get them in. I did not have a problem actually bringing H-2A 
workers. It was everything that went on after that where my 
problems came in.
    Senator Franken. That is that they did not----
    Ms. Horner. They were inexperienced, which is a huge 
production problem. And I have got information in front of me 
where the best H-2A workers averaged about $11 an hour where a 
migrant worker averages about $16 an hour. And then your 
Americans, the legal referrals, they average less than $3.75 an 
hour in earned wages. So there is just a huge difference in 
trying to work with migrant versus H-2A versus legal Americans 
who are inexperienced. These workers are skilled. It is amazing 
to watch them pick blueberries. They are like little machines. 
It is amazing.
    Senator Franken. And in certain crops, am I right, Mr. 
Rodriguez, you can do damage to the future bearing potential if 
you pick improperly?
    Mr. Rodriguez. There is no doubt. I mean, if you do not 
know how to prune a vine, for example, in table grapes or 
orchards or any of those berry crops that require pruning, you 
can not only affect next year's crop but affect the crop many 
years into the future and do serious damage to the vine or to 
the trees.
    The same thing with row crops. If you do not know how to 
pick them right, you are stepping all over the place, you are 
smashing other crops, you are killing the strawberries, 
mutilating the strawberries, and the same thing with the 
berries. You have to be experienced; otherwise, you will 
squeeze them or you will not pick them right, and you will not 
grab the stem right. Yes, it does require a skilled 
professional workforce.
    Senator Franken. And I want to ask you about--you discussed 
in your testimony--oh, by the way, I just want to put this in 
the record. I am sure it is, but the National Council of 
Agricultural Employers recently issued a report finding that 72 
percent of growers participating in the H-2A program reported 
that their guest workers arrived after the date they were 
needed, on average 22 days late.
    Ms. Horner. Which is why we made sure we moved our date----
    Senator Franken. You did everything incredibly right.
    Ms. Horner. I did everything. Yes, I did.
    Senator Franken. You just anticipated everything. You 
worked as hard as you could. You were doing the paperwork.
    Ms. Horner. I was drowning in----
    Senator Franken. Would you like to work in the Senate?
    [Laughter.]
    Senator Franken. Because--anyway----
    Senator Blumenthal. You have the right to remain silent.
    [Laughter.]
    Ms. Horner. Thank you, sir.
    Senator Franken. Mr. Rodriguez, you discussed the United 
Farm Workers ``Take Our Jobs'' program, which is a campaign 
where you literally invited people across the Nation to take 
your jobs. Ten thousand people inquired about those jobs, but 
you said only seven eventually accepted a job in agriculture. 
What were the main reasons that the people did not take those 
jobs?
    Mr. Rodriguez. It was actually 11, Senator.
    Senator Franken. I am sorry, 11.
    Mr. Rodriguez. Yes, it was a misprint on our part.
    Senator Franken. Well, in that case, that sounds like a 
success.
    Mr. Rodriguez. There were a number of different reasons. 
Some were mentioned here earlier by Ms. Horner: some people 
were wondering if there was going to be air-conditioning 
provided.
    Senator Franken. Does air-conditioning fields cost a lot to 
the growers?
    [Laughter.]
    Mr. Rodriguez. Unfortunately, yes. They were asking about 
whether transportation would be provided. Potential workers 
would ask if somebody could come and pick them up at their 
homes and take them to their jobs and return them? They asked 
how many hours do I have to work? What are the breaks like? 
Very unfamiliar--with what it takes to work in the fields, the 
types of skills it requires, the types of stamina and endurance 
that someone has to have to be able to do that work.
    Senator Franken. I will end my questioning now, but I am 
really curious about those 11 people.
    Mr. Rodriguez. You know, to be honest with you, we do not 
know a whole lot about them. We know they were there, they were 
working, and they were doing their job. But we did not get back 
information as to how long they actually stayed with it after 
they started and that type of thing.
    Senator Franken. Well, then, I guess we will just wrap up. 
I want to thank you all for your testimony. I think that, 
again, we would all agree that we have a broken system and that 
there are different viewpoints on what to do with the short-
term problems and with the long-term problems. But this 
concludes our hearing. I would like to again thank Commissioner 
Black, President Nassif, President Rodriguez, Mr. Smith, Dr. 
Knutson, Ms. Horner, and Mr. Ruark for testifying at today's 
hearing.
    The record will remain open until Tuesday, October 11, 
2011, for further testimony and questions. I would like to 
thank the following individuals and groups for submitting 
testimony for the record: the National Council of Agricultural 
Employers, the National Milk Producers Federation, Upstate 
Niagara Cooperative, Maple Lawn Farms, St. Alban's Cooperative 
Creamery, Idaho Dairymen's Association, Foremost Farms USA. I 
ask unanimous consent that these statements be inserted in the 
record of this hearing. Without objection, so ordered.
    [The statements appear as a submission for the record.]
    Senator Franken. This hearing is now adjourned.
    [Whereupon, at 12:15 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
